OFFICE OF INSPECTOR GENERAL



REVIEW OF SCHOOL AND
HEALTH CLINIC BUILDINGS
COMPLETED UNDER THE
SCHOOLS AND CLINICS
CONSTRUCTION AND
REFURBISHMENT PROGRAM
REPORT NO. 5-306-10-002-O
JUNE 24, 2010




MANILA, PHILIPPINES

Office of Inspector General


June 24, 2010

MEMORANDUM

TO:                 USAID/Afghanistan Director, William M. Frej

FROM:               Acting Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:            Review of School and Health Clinic Buildings Completed Under the
                    Schools and Clinics Construction and Refurbishment Program (Report
                    No. 5-306-10-002-O)

Please find attached one copy of the subject final report, which presents the results of
the review performed on school and health clinic buildings completed under the Schools
and Clinics Construction and Refurbishment Program. The engagement was contracted
by the Regional Inspector General/Manila with KPMG Afghanistan Limited under award
number 492-C-00-09-00019-00. In finalizing the report, we considered your comments
on the draft report, and we have included those comments in their entirety in Appendix I.

This memorandum contains two recommendations relating to the buildings completed
under the program. On the basis of information provided by the mission in response to
the draft report, we determined that final action has been achieved on recommendation
1, and the recommendation is considered closed upon report issuance. Furthermore, a
management decision has been reached on recommendation 2. A determination of final
action will be made by the Audit Performance and Compliance Division upon completion
of the planned corrective actions addressing the recommendation.

KPMG reported their findings in accordance with the requirements of the “Statement of
Standards for Attestation Engagements,” No. 4, by the American Institute of Certified
Public Accountants, and Government Auditing Standards, July 2007 Revision (GAO-07-
731G), Chapter 6, “General, Field Work, and Reporting Standards for Attestation
Engagements.”

Results of the Review. In September 2002, USAID/Afghanistan began to build and
reconstruct schools and health clinics throughout Afghanistan under the program.
During the subsequent 4 years, the mission increased the number of structures subject
to the program from fewer than 100 to 776. Similarly, the number of implementing
partners grew to more than a half dozen, and disbursements under the program
amounted to more than $105 million.


U.S. Agency for International
Development
8th Floor, PNB Financial Center
Pres. Diosdado Macapagal Blvd.
1308 Pasay City, Philippines
www.usaid.gov/oig
In October 2004, the office of the Regional Inspector General/Manila (RIG/Manila)
audited the school and health clinic reconstruction activities. 1 The audit found that the
program was behind schedule, and it recommended that the mission develop a new
implementation plan.

This review was prompted by RIG/Manila’s subsequent inability to visit program sites
because of the precarious security situation where many schools and clinics are located.
Accordingly, RIG/Manila contracted with KPMG Afghanistan, whose staff could travel
more easily within Afghanistan. To conduct site visits, RIG/Manila provided KPMG a
statistical sample of 50 buildings—30 schools and 20 clinics from the 776 schools and
clinics completed across Afghanistan under the program. The review had two
objectives: (1) to determine whether schools and clinics constructed under the program
were being used for their intended purposes and (2) to measure the impact of the
program on the provision of education and health services to the people of Afghanistan.

To answer the first objective, KPMG visited and inspected 50 buildings to verify their
physical existence and observe how they were being used. Overall, KPMG found that
48 of the 50 facilities were being used for their intended purposes. The two exceptions
were a school, which was being used as an administrative office for the Ministry of
Education, and a health clinic, which had been abandoned. The school was not being
used for classes because the structure proved inadequate to accommodate the area’s
students, and the clinic could not be used for patient treatment because of security
concerns. When these two exceptions in the statistical sample of 50 are projected to the
universe of 776 buildings with a 90 percent confidence rate, we calculated that as few as
2 and no more than 38 buildings completed under the program are not being used as
intended.

KPMG also noted numerous deficiencies with regard to the physical condition of the
school and health clinic buildings. These deficiencies included physical problems, poor
hardware, lack of electrical supply (because buildings were located in areas where
electrical service is unavailable), deficient water service and plumbing (or none), and
toilet problems. However, KPMG could not determine whether the deficiencies were
attributable to work performed under the program or to a subsequent lack of
maintenance.

KPMG noted that the deficiencies created an environment not conducive to quality
education and health services and might expose the students, patients, and staff
working in those buildings to unhealthy and even dangerous conditions. In addition, the
report noted operational problems in the schools and clinics. These problems included
poor maintenance, inadequate personnel, and lack of furniture and equipment. These
conditions, however, were the responsibility of the Government of Afghanistan.




1
 “Audit of USAID/Afghanistan’s School and Clinic Reconstruction Program,” Audit Report No.
5-306-05-003-P, issued March 14, 2005.



                                                                                             2
 Ceiling at Del Hassain Primary School in Balkh province, which shows evidence of water damage
                      and a defect in the roof. (Photo by KPMG Afghanistan.)

To answer the second objective—measuring the impact of the program on providing
educational and health services to the people of Afghanistan—KPMG scheduled its field
visits when the schools and clinics would be in use. This schedule enabled KPMG to
observe firsthand whether classes were being held and health clinics were being used.
The teams also reviewed records and documentation maintained at each location to
further verify that buildings were being used as intended. KPMG found that the 30
schools visited were staffed with 1,385 teachers and were educating 57,744 students.
The 20 health clinics visited employed 109 clinical staff and provided medical treatment
to approximately 39,500 patients monthly. KPMG concluded, however, that these
values do not give a meaningful indication of the completed buildings’ impact on the
provision of education and health services in Afghanistan, because baseline information
was not available to make any comparisons.




                                                                                                 3
   Broken toilets in the Laisa Islam Qila school in Herat province. (Photo by KPMG Afghanistan.)

The following two recommendations relate to the buildings completed under the
program. USAID will include these recommendations in its Consolidated Audit and
Compliance Tracking System.

Recommendation 1. We recommend that USAID/Afghanistan consider requesting from
the Ministry of Education and the Ministry of Health a list of schools and clinic buildings
completed under the Schools and Clinics Construction and Refurbishment Program that
are not being used for intended purposes and make a determination in coordination with
these ministries whether adjustments in the use of these facilities can or should be
made.

Recommendation 2. We recommend that USAID/Afghanistan evaluate the physical
and construction deficiencies identified in Annexures C and D of the attached KPMG
report and develop an action plan to correct those deficiencies.

Evaluation of Management Comments. With regard to recommendation 1, the
mission presented valid reasons for not concurring with the recommendation as
originally written. The mission noted that 48 of the 50 buildings in the sample were
being used for intended purposes and that there are logical reasons why certain
buildings are not currently being used for their originally intended purposes. As the
report points out, a school was being used for Ministry of Education administrative
offices as it proved inadequate to accommodate the area’s students, and a clinic was not
used for patient treatment because of security concerns. Furthermore, the mission


                                                                                                   4
noted that the completed buildings had been turned over to the Government of
Afghanistan and, as such, the mission cannot dictate the subsequent use of the
buildings. As a result of our acceptance of the mission’s rationale for not concurring with
the original recommendation, we have slightly modified the recommendation to ask the
mission to “consider” requesting a list of facilities not being used for their originally
intended purposes. Therefore, we are not requiring any further action on this
recommendation and consider it closed upon report issuance.

In response to recommendation 2, the mission stated that it partially agrees with the
recommendation. Specifically, it agrees to correct the defects in construction and, in
particular, those matters that could impact safety. However, the mission does not agree
to correct the short-term refurbishments and defects related to lack of maintenance by
the Government of Afghanistan. We agree with this response and note that the mission
should be responsible only for the construction it provided and not for a lack of
subsequent maintenance after handover. In light of the information provided by
USAID/Afghanistan, we consider that a management decision has been reached on this
recommendation.

We appreciate the cooperation and assistance that USAID/Afghanistan extended to the
audit firm and RIG/Manila auditors in Kabul during the course of the review.

Attachment: as stated




                                                                                         5
           Report on Agreed upon Procedures
                                    for
            Post-occupancy Evaluation of
        USAID/Afghanistan’s School and Health
      Clinic Buildings Completed under the Schools
      and Clinics Construction and Refurbishment
                 Program - (SACCARP)




Contract number:         492-C-00-09-00019-00



Submitted to:            USAID / Regional Inspector General Manila


Submitted by:            ABCD Afghanistan Limited
                         1st Floor, Park Plaza
                         Torabaz Khan Road, Shar-e-Now
                         Kabul
                         Afghanistan



Date of Submission: 06 June 2010
                    Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




Transmittal Memorandum
Regional Inspector General/Manila
8/F PNB Financial Center
President Diosdado Macapagal Boulevard
Pasay City, 1308
Philippines


                                                                              Our ref. AO- 198-2010
06 June 2010


Dear sir,
Post-occupancy Evaluation of USAID/Afghanistan’s School and Health Clinic Buildings
Completed under the Schools and Clinics Construction and Refurbishment Program
(SACCARP)

We are pleased to enclose herewith our Report on the agreed upon procedures for the Post-
occupancy Evaluation of USAID/Afghanistan’s School and Health Clinic Buildings Completed
under the Schools and Clinics Construction and Refurbishment Program (SACCARP).

The purpose of this engagement is to apply certain agreed-upon procedures on
USAID/Afghanistan’s SACCARP program managed by the seven implementers under their
respective awards to determine whether the school and health clinic buildings completed under
the program are being used for their intended purposes and measure the impact of the program on
the provision of educational and health services to the people of Afghanistan.

We take this opportunity to express our appreciation for the courtesy and cooperation extended to
us during the course of this engagement by the personnel of USAID/RIG Manila Mission in
Afghanistan.



Yours Truly

/s/

KPMG Afghanistan Limited, Kabul




 
 




ABCD                                                                                                               2
                       Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




Table of Contents 
       #         Description                                                                                 Page #

                 Transmittal Memorandum                                                                           2

                 Table of Contents                                                                                3
       1         Summary of Results                                                                               4

       2         Background                                                                                       6

           2.1           Overview of USAID Programs in Education and Health Sectors                               6
           2.2           History of SACCARP Program                                                               7
           2.3           Program Objective                                                                        8
           2.4           Nature of SACCARP Interventions                                                          9
       3         Objective, Scope & Methodology                                                                  11

           3.1           Objective & Scope of the Engagement                                                     11
           3.2           Data Gathering Requirements                                                             12

           3.3           Agreed Upon Procedures                                                                  13
           3.4           KPMG Approach in Field Visits                                                           14
           3.5           Report Structure                                                                        15
       4         Independent Auditors’ Report on Agreed-Upon Procedures                                          16

           4.1           Intended Use of Buildings                                                               17
           4.2           Physical Condition of School and Health Clinic Buildings                                18
           4.3           Operational Condition of School and Health Clinic             Buildings                 20
           4.4           Impact of The SACCARP Program on the Provision of Education and                         22
                         Health Services to the People of Afghanistan

  Annex A        Selected Sample of School buildings                                                             24

  Annex B        Selected Sample of Health Clinic buildings                                                      26

  Annex C        Physical condition of School buildings                                                          27

  Annex D        Physical condition of Health Clinic buildings                                                   28

  Annex E        Operational condition of School buildings                                                       29

  Annex F        Operational condition of Health Clinic buildings                                                30

  Annex G        List of photographs showing Physical and Operational condition of School &                      31
                 Health Clinic buildings
                 Photographs capturing physical & operational problems in selected buildings                   32-43




ABCD                                                                                                                   3
                   Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




1.     Summary of Results
       We are pleased to summarize our findings on the agreed upon procedures for the Post-
       occupancy Evaluation of USAID/Afghanistan’s School and Health Clinic Buildings
       Completed under the Schools and Clinics Construction and Refurbishment Program
       (SACCARP). The purpose of this engagement was to apply agreed-upon procedures on a
       selected sample of 30 school buildings (Annexure A) and 20 health clinic buildings
       (Annexure B) identified by USAID/RIG Manila to answer to the following objectives:

       1.	 Determine whether the school and health clinic buildings completed under the
           program are being used for their intended purposes, and

       2.	 Measure the impact of the program on the provision of education and health services
           to the people of Afghanistan.

       For the first objective, we found that the selected school and health clinic buildings
       completed under SACCARP are generally being used for their intended purposes with the
       exception of two buildings. However, as these two exceptions raise questions about the
       program’s effectiveness in increasing access to education and health facilities, we are
       making a recommendation on page 17 that the utilization of all buildings completed
       under SACCARP be determined to enable the USAID Afghanistan to evaluate program
       impact.

       For the second objective, we found that without either an identification of baselines or an
       assessment of needs, we could not measure the impact of SACCARP on the provision of
       education and health services to the people of Afghanistan. Nevertheless, we found that
       the 30 selected school buildings are staffed with 1,385 teachers imparting education to
       57,744 students. In case of 20 health clinic buildings, 109 clinical staff provides medical
       treatment to approx. 39,500 patients on monthly basis. These figures, however, do not
       give a meaningful indication of the completed buildings’ impact on the provision of
       education and health services in Afghanistan, because comparable quantitative
       information from before the program occurred and of program objectives are not
       available to make comparisons.

       Furthermore, we found the physical and operating conditions of the selected buildings did
       not reveal a satisfactory situation. A variety of problems relating to the physical and
       operating condition of the 50 selected buildings were identified during the site visits and
       are reported on pages 18 and 20 of this document. Not applying appropriate building
       codes/benchmarks during construction and a subsequent shortage of funds for
       maintenance were the possible major causes of the identified problems.
       USAID/Afghanistan currently applies the International Building Code to the building
       projects it funds, however, we understand from discussions with the USAID team that the
       International Building Code was not adhered to during the SACCARP program
       implementation.



ABCD                                                                                                              4
                  Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



       Responsibility for carrying out remedial actions for improving the operational condition
       of the selected buildings belongs to the Government of Afghanistan. Accordingly, we
       make no recommendations to USAID/Afghanistan in this regard. However, remedial
       actions are needed for buildings completed under SACCARP and should be implemented
       by USAID/Afghanistan. This report presents 2 recommendations on page 20 to address
       the physical problems we identified.




ABCD                                                                                                             5
                   Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




2.     Background
2.1    Overview of the USAID Programs in Education and Health Sectors of Afghanistan

       Given below is a brief overview of all the initiatives for improvement of education and
       health sectors. It is pertinent to note that this information was collected from the Central
       Statistics Organization, Afghanistan and we are not in a position to comment on the
       adequacy and reasonableness of such information.

       2.1.1.   Education sector interventions and impacts

       USAID’s interventions coupled with the effects of other programs in education sector of
       Afghanistan by a large number of donors and NGOs contributed a lot in terms of
       increases in number of schools, increases in number of enrolments, increases female
       participation and in the overall improvement in the quality of education delivered.

       i)	 The average growth in number of schools from the year 2002 to 2008 was around
           8%. Under the USAID SACCARP, 150 new schools were constructed including 26
           high schools, 46 middle schools and 78 primary schools.

       ii)	 The total number of students increased from 3.7 million in 2002 to 6.2 million in
            2008 (annualized average of 10%) where the girls to boys’ ratio also improved from
            28% to 36%. The growth in number of students was mainly driven through primary
            schools as the number of primary school students increased from 3.08 million to 4.78
            million.

       iii) The number of teachers increased from 92,583 in 2002 to 159,244 in year 2008
            showing an annualized growth of 10%. The information on qualitative improvements
            for teachers was not available therefore has not been analyzed. The students to
            teacher’s ratio decreased marginally from 40 students per teachers in 2002 to 38
            students per teacher in year 2008. The USAID Education Sector Profile for fall 2009
            identifies the following key achievements emanating from USAID overall education
            sector interventions in Afghanistan.

               More than two million children enrolled in USAID-supported primary schools.
               Nearly 500,000 students enrolled in USAID-supported secondary schools.
               Supporting 45,000 students annually in remote community based schools.
               Trained nearly 10,500 teachers in an accelerated learning program and more than
                2,600 university professors on modern teaching methods.
               Built or refurbished more than 680 schools.




ABCD                                                                                                              6
                   Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



       2.1.2   Health sector interventions and impacts

       Similar to the education sector program interventions, the health sector was also a focus
       for many donors and NGOs. USAID program interventions were made primarily within
       the following areas:

          Meeting immediate health care needs. 

          Building capacity in the health system. 

          Increasing demand for and access to quality health products and services through the 

           private sector.

       New construction and refurbishment of health clinic buildings was a component of
       USAID’s interventions in health sector. USAID programs coupled with programs from
       donors and NGOs contributed to the improvement of health sector by increasing the
       number of hospitals; primary health clinics; secondary health clinics; comprehensive
       health clinics; increasing the number of doctors, nurses, and pharmacists; and improving
       the overall quality of health facilities.

       i)	 The number of hospitals increased from 116 in 2004 to 130 in 2008, while the
            increase in basic health clinics was from 544 to 917 during the same period. Under
            SACCARP, 220 new health care facilities were constructed including 42
            comprehensive health clinics and 178 basic health clinics.
       ii)	 The number of doctors increased by about 800 between 2004 and 2008, while the
            number of nurses increased from 6,835 to 12,113 during the same period.

       USAID’s Health Sector Profile for 2009 identifies the following key achievements
       emanating from USAID overall health sector interventions in Afghanistan.

          More than 8.5 million people have improved access to basic health services in 13
           USAID supported provinces.
          26 percent drop in child mortality since 2002.
          More than 670 health facilities constructed or renovated.
       	 More than 17,000 health workers trained, including pre-service training for midwives
          and community health workers and in-service training for doctors, midwives, nurses,
          and lab technicians.
          More than 30,000 people received health care services daily through clinics and
           direct outreach workers.
          More than seven million children vaccinated against polio.




ABCD                                                                                                              7
                  Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




2.2    History of SACCARP program

       On September 30, 2002, USAID awarded a contract to Louis Berger Group, Inc., (LBGI)
       to implement infrastructure reconstruction activities in Afghanistan under the
       Rehabilitation of Economic Facilities and Services Program. The program’s purpose was
       to promote economic recovery and political stability by rehabilitating and repairing
       infrastructure. One of the components of the program, and of the LBGI contract, was the
       reconstruction of schools and health clinics. The contract initially tasked LBGI to
       complete up to 40, 140, and 240 school and health clinic buildings cumulatively in
       calendar years 2003, 2004, and 2005, respectively.

       By mid-2003, USAID’s expectations for the completion of a significantly higher number
       of buildings became apparent and there was mounting urgency from US Government to
       demonstrate on-the-ground progress because little had yet been achieved. To address the
       expectations and urgency, a number of construction methods were analyzed by LBGI and
       considered by USAID/Afghanistan, including mass producing pre-fabricated schools and
       clinics—a method LBGI believed would result in about 1,200 new facilities by the end of
       2005. However, USAID opposed the pre-fabrication method because it was too costly
       and it did not involve Afghan construction firms - a development objective of the school
       and clinic reconstruction program. Therefore, in late 2003, LBGI abandoned the pre-
       fabrication method and awarded subcontracts to Afghan construction firms to build the
       schools and clinics.

       Later, in January-February 2004, USAID reconsidered using the pre-fabrication method
       for about 400 new schools and clinics because of a new directive – the “Accelerated
       Success Program” – to USAID from the Deputies Committee for Afghanistan (Deputies
       Committee), led by the National Security Council.               This directive required
       USAID/Afghanistan to complete a significant number of buildings by June 2004. In
       March 2004, the Mission removed all but the 105 buildings from LBGI’s contract. In
       May 2004, USAID entered into cooperative agreements with five International
       Nongovernmental Organizations (INGOs) to build more schools and clinics; these
       INGOs then subcontracted the construction to Afghan firms. USAID also found it
       necessary to revise its building-completion schedule from the June 2004 target date
       established by the Deputies Committee to September 2004. In July 2004, USAID again
       found it necessary to revise its building-completion schedule to the end of calendar year
       2004.

       In October 2004, the OIG audited the school and health clinic reconstruction activities.
       At that time, USAID had planned to complete 533 buildings by December 31, 2004. The
       audit reported that USAID would complete only 328 buildings by December 31, 2004. In
       response to the audit recommendation, USAID developed a new implementation plan,
       which set August 31, 2005, as the new target date to complete the 533 buildings.




ABCD                                                                                                             8
                                    Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



              In January 2006, USAID confirmed to the OIG that it had not met the August 31, 2005,
              target date and that school and health clinic reconstruction activities were still ongoing.
              Consequently, the OIG decided to conduct a second audit of these activities. In April
              2006, USAID had increased the number of schools and health clinics it planned to
              reconstruct from 533 to 795 and the number of implementing partners from six to seven.
              Targets weren’t met because some were cancelled and others were left incomplete. In
              total, 768 buildings represent the balance of activities subject to implementation until 29
              September 2006, out of which 758 buildings were completed. At USAID/Afghanistan,
              the Office of Infrastructure, Engineering and Energy was responsible for overseeing the
              SACCARP.

2.3           Program Objective

              The new construction and refurbishment of schools component was part of the USAID’s
              education strategy for Afghanistan to meet the urgent need for textbooks, schools, new
              curricula and trained teachers. The overall objective was to develop the capacity of the
              Afghanistan Government to improve education quality while simultaneously increasing
              access to opportunities in basic education, higher education, and non-formal training in
              literacy, employment skills and youth leadership.

              Similarly new construction and refurbishment of clinics component was also part of
              USAID’s approach to improving the health of the Afghan people with the overall
              objective to help meet the immediate health care needs of the population by strengthening
              the health care service delivery system; addressing the management leadership and
              stewardship capacity of the Afghan health care system at the central, provincial, district
              and community levels; increasing demand and access to quality health products and
              services through the private sector.

2.4           Nature of SACCARP Interventions

              This section highlights the quantum of interventions under SACCARP in education and
              health sectors. The statistics used were extracted from USAID SACCARP Master
              Listing,

              2.4.1          Schools 1

              Under Schools Construction and Refurbishment Component of SACCARP, a total of 474
              new construction and refurbishment activities for schools were targeted for 30 out of 34
              provinces of Afghanistan. Based on the estimated population and area of provinces, the
              program intervention covered 92% of the total population and 85% of the total area in
              broader terms.




                                                            
1
     The program involved three catagories of schools, Secondary, Middle and High Schools  

ABCD                                                                                                                               9
                                    Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




                                       Nature of activities                        New           Refurbishmen            Total
                                                                                constructio       t activities
                                                                                     n
                Targeted activities                                                  160                314                474
                 Activities cancelled prior to implementation                        (10)                (4)              (14)
                 Balance of activities subject to implementation                     150                310                460
                 Incomplete activities                                               (9)                 (0)               (9)
                 Completed activities                                                141                310                451

              The program was implemented through seven implementing partners comprising five
              international Non-governmental Organizations, joint venture of two US based
              corporations (Louis Berger Group, Inc. and Black & Veatch Special Projects Corp.) and
              the U.S. Army Corps of Engineers.

              2.4.2          Health Clinics 1

              This component of SACCARP pertains to a target of 321 health clinics in total, involving
              construction of 220 new health clinics and refurbishment of 101 health clinics. Amongst
              the 220 new health clinics, 8 health clinics were cancelled, similarly 5 refurbishment
              activities were also cancelled and one new construction was complete to the extent of
              97%.

                                                                                   New           Refurbishmen            Total
                                                                                constructio       t activities
                                                                                     n
                 Targeted activities                                                 220                101                321
                 Activities cancelled prior to implementation                        (8)                (5)               (13)
                 Balance of activities subject to implementation                     212                 96                308
                 Incomplete activities                                               (1)                  -                (1)
                 Completed activities                                                211                 96                307

              Based on the estimated population and area of provinces, the program intervention
              covered 90% of the total population and 83% of the total area in broader terms. The
              program was implemented by USAID through seven implementing partners comprising
              five international Non-governmental Organizations, joint venture of two US based
              corporations (Louis Berger Group, Inc. and Black & Veatch Special Projects Corp) and
              the U.S. Army Corps of Engineers.



                                                            
1
 The program involved construction and refurbishment of three catagories of medical facilities i.e.
Comprehensive Health Clinics, Basic Health Clinics and Hospitals  

ABCD                                                                                                                              10

                     Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




3.       Objective, Scope and Methodology
3.1      Objective & Scope of the Engagement

         The objective of this engagement was to apply agreed-upon procedures on
         USAID/Afghanistan’s SACCARP to determine (1) whether the school and health clinic
         buildings completed under the program are being used for their intended purposes, and
         (2) measure the impact of the program on the provision of educational and health services
         to the people of Afghanistan. The engagement focused primarily on the assessment of the
         status of 758 school and health clinic buildings constructed and refurbished under this
         program and for this purpose a statistical sample of 50 buildings was selected by
         USAID/RIG Manila for detailed verification through site visits.

         The scope of this engagement is enumerated in section C of the Services Contract and
         consists of the performance of certain “Agreed-Upon Procedures (AUPs)” associated
         with post-occupancy evaluation of buildings constructed and refurbished under
         SACCARP and report the results in accordance with the requirements of “AICPA’s
         Statement of Standards for Attestation Engagements No. 4” and “US Government
         Auditing Standard Chapter 6, for General, Field Work and Reporting Standards for
         Attestation Engagements.” The agreed-upon Procedures include the following;

         1	 Obtaining consents from line ministries to visit 50 building locations – a sample
            selected out of 758 buildings by USAID/ RIG Manila;

         2	 Resource / logistics arrangements for site visits of the 50 selected locations;

         3	 Establishing the existing use of buildings through observations, interviews and
            documentation reviews during site visits;

         4	 Data gathering during site visits and compilation of 50 “Site Visit Reports” on
            prescribed formats; conforming the intended use of buildings through observations,
            interviews of the relevant ministry’s officials and documentation review;

         5	 Summarize the results of the post-occupancy evaluation of the SACCARP buildings
            by completing the prescribed Performa of Excel workbook; and

         6	 Consolidated results / findings through Independent Auditors’ Report




ABCD 	                                                                                                             11

                    Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




3.2      Data Gathering Requirements

         The prescribed format for site visit reports was provided in the terms of reference
         developed by USAID/RIG Manila for this engagement. The findings and data given in
         this report are the consolidation of the relevant information extracted from the 50 Site
         Visit Reports capturing the field visits. Following were the prescribed data gathereing
         requirements.

         S. No     Particulars Required


           1       Sample No 

           2       USAID ID (Old & New) 

           3       Name of School / Health Clinic 

           4       Location (Province, District & Village) 

           5       GPS Locations (North & East) 

           6       Name of Implementing Partner # 1 and # 2 

           7       Type of School (primary or secondary) / Health Clinic (Basic or Comprehensive) 

           8       Type of Construction (New Construction or Refurbishment) 

           9        No of staff working in Schools and Health Clinics 


          10 	     In case of School number of enrolled students and in case of Health Clinics number
                   of patients treated per month
          11 	     Documents reviewed; in case of School; Enrollment records, attendance sheets &
                   teachers’ payroll records; and in case of Health Clinics Patients’ records, staff payroll
                   record & staff attendance records
          12 	     Problems & defects in the physical condition of the buildings (Physical problems ,
                   Electrical problems, Water supply problems, Plumbing & Toilet problems / waste
                   disposal in case of Health Clinics)
          13 	     Operational problems of the building (Lack of maintenance, Lack of funding, Lack
                   of personnel, Lack of furniture / equipment, Security issues, Inaccessible location,
                   Others)
          14       Determine whether the problems were identified prior to the handover of the
                   buildings or after the Government of Afghanistan had claimed ownership of the
                   buildings. What actions were taken to address the problems?




ABCD 	                                                                                                            12

                      Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




3.3    Agreed Upon Procedures
       Following are the Agreed-Upon Procedures defined for the purpose of this engagement:

         #        Description of Agreed upon Procedure
         1        Obtain written authorization from the appropriate ministries for the planned site visits to
                  the selected school and health clinic buildings.
         2        Using the list of school and health clinic buildings statistically selected by RIG/Manila
                  determine, through site visits, observations, interviews, and review of official documents
                  whether the buildings are being used for their intended purposes.
         A        Site Visits
             i)   Conduct site visits when schools are in session and health clinics are open (to ensure that
                  the buildings are being used for their intended purposes).
          ii)     Document site visits by completing the appropriate Site Visit Report forms developed by
                  RIG/Manila. Ensure that information recorded in the Site Visit Reports are provided by
                  responsible school and health clinic officials.
          iii)    Take photographs of the interior and exterior of the buildings. If photographs include
                  images of students, patients, and school and health clinic officials and staff, to complete
                  the specified Photograph Release/Consent form. The auditor should also photograph
                  structural defects identified during the site visits.
         B        Observations
             i)   Observe the physical condition of the buildings. Identify, through inspection and
                  interview, the physical defects of the buildings. These physical defects may include, but
                  are not limited to, structural defects, electrical problems, water supply/plumbing
                  problems, and insufficient toilet and waste disposal facilities.
          ii)     Observe the operation of the buildings. Identify, through inspection and interview, the
                  operational problems of the buildings. These operational problems may include, but are
                  not limited to, lack of maintenance by the Government of Afghanistan, lack of funding,
                  lack of personnel, lack of furniture/medical equipment, security issues, and inaccessible
                  location.
          iii)    Determine whether the physical defects identified were caused by lack of maintenance
                  on the part of the Government of Afghanistan or poor construction by the implementer
                  and to determine what actions were taken to address the problems and what were the
                  results of the actions taken?
          iv)     Document the results of these observations in the Site Visit Reports.
         C        Interviews
             i)   Interviews with responsible school and health clinic officials must be documented using
                  the Site Visit Report. In addition to the information gathered during the interview to
                  complete the Site Visit Report, the auditor may expand the scope of the interview if
                  follow-up questions are warranted.
          ii)     Interviews with school students and health clinic patients should also be conducted,
                  documented, and included, as attachments, to the respective Site Visit Reports. Find out
                  if the students/patients are satisfied with the condition of the buildings, and whether the
                  buildings meet their needs.



ABCD                                                                                                                13

                   Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




         #     Description of Agreed upon Procedure
         D     Documentation Review
               If possible, the auditor should support documents that s/he reviewed with sample copies.
               Examples of documents to be reviewed are students’/patients’ records and school/health
               clinic payroll records. The sample copies, if written in a language other than English,
               should be translated to English.
          3    For every school or health clinic building identified as not being used for its intended
               purpose, determine the cause(s), the party responsible for the cause(s), and actions taken
               to address the cause(s). Obtain copies of documentation evidencing formal attempts to
               resolve the problems.
               Buildings may not be used for their intended purposes for various reasons such as:
               Structural defects, Lack of basic utilities (water and/or electricity), Lack of personnel,
               Lack of funds, Security issues, Building is used for purposes other than the original
               intent
               The auditor should explain in detail the causes as to why the buildings are not being used
               for their intended purposes, the actions taken by the building officials to address the
               problems, and the status of the problems.
          4    If the auditor could not visit a building for reasons beyond his control, he should inform
               and obtain the approval of the designated RIG/Manila audit liaison person. If approval is
               obtained, the auditor should use the Site Visit Report form to document the reasons for
               not visiting the building.
          5    Summarize the results of the post-occupancy evaluation of the SACCARP buildings by
               completing the prescribed Performa of Excel workbook


3.4    KPMG Approach in Field Visits

       To answer the first objective, we verified the physical existence and observed utilization
       of the 50 selected buildings. The physical existence of 50 selected buildings was verified
       through field visits by our visiting teams who visited all locations and verified each
       building. The visiting teams were carrying cameras and GPS equipment thorough which
       they captured the external view of the buildings and the respective site location. The
       biggest challenge in this exercise was the correct identification of the geographical
       location of the building on that site, for which we used GPS coordinates by matching the
       noted GPS coordinates with the related data provided by USAID. We also obtained the
       help of relevant staff of the two ministries (Ministry of Health and Ministry of Education)
       to find and confirm each site location.

       To observe the utilization of the 50 buildings, field visits were scheduled to ensure that
       the schools and health clinics were in session. This enabled the visiting teams to observe
       whether classes were held and education imparted in the school buildings and whether
       the health clinics buildings were being used for treatment of patients. Our teams also
       reviewed different records and documentation maintained at each location to verify the
       intended use of these buildings. This was done, in case of 30 schools, through verification
       of registration and attendance records of students and payroll record of the teachers while



ABCD                                                                                                             14

                   Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



       in case of 20 health clinics the utilization was further confirmed thorough Patients’
       records and Payroll of doctors and other medical staff in all the health clinics.

       For effective intended use of any facility, it is important that the facility should be in an
       appropriate physical and operating condition to ensure smooth and uninterrupted
       operations. For the purpose of this engagement, we interpreted the second objective to
       mean that all the 50 buildings have adequate physical and operating infrastructure to
       enable the successful operations of schools and health clinic buildings. Our field visit
       teams used the standard format of the site visit reports as given by USAID in the terms of
       reference of this engagement to capture physical and operating conditions of the selected
       50 buildings. During our field visits of 50 identified sample facilities, we also collected
       the information with reference to the service delivery. All the reportable conditions are
       based on our observations, interviews and photographs that have been taken during the
       field visits.

3.5    Report Structure

       The Auditor’s Report on the ensuing pages groups the audit findings in accordance with
       the objectives and related other findings of this engagement i.e.

       1- Determine whether the school and health clinic buildings completed under the
          program are being used for their intended purposes, and

       2- Measure the impact of the program on the provision of education and health services
          to the people of Afghanistan.

       It should be noted that all the 50 individual site visit reports, identifying in detail the
       nature and extent of problems along with photographs, have been handed over to
       USAID/ RIG Manila apart from this report. Readers are advised to refer to these detailed
       reports in case further explanation is required.




ABCD                                                                                                             15

                     Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




4.       I	 ndependent Auditors’ Report on Agreed-Upon
         Procedures
         USAID Regional Inspector General/Manila

         Post-occupancy Evaluation of USAID/Afghanistan’s School and Health Clinic
         Buildings Completed under the Schools and Clinics Construction and
         Refurbishment Program (SACCARP)

         We have performed the procedures enumerated below, which were agreed to by the
         USAID‘s Regional Inspector General/Manila, to assist in evaluating the results of the
         post-occupancy evaluation of the school and health clinic buildings constructed and
         refurbished under SACCARP.

         The overall responsibility for the Post-occupancy Evaluation of USAID/Afghanistan’s
         School and Health Clinic Buildings completed under the SACCARP Program rests with
         project management and implementing partners. Our responsibility is restricted to the
         performance and reporting the results of certain agreed upon procedures as agreed
         between KPMG Afghanistan Limited and USAID/RIG Manila in the contract no 492-C-
         00-09-00019-00 dated June 18th, 2009.

         This agreed-upon procedures engagement was conducted in accordance with attestation
         standards established by the American Institute of Certified Public Accountants. The
         sufficiency of these procedures is solely the responsibility of USAID/RIG Manila.
         Consequently, we make no representation regarding the sufficiency of the procedures
         described below and on the adequacy of the selected sample of fifty 50 out of 776
         locations, either for the purpose for which this report has been requested or for any other
         purpose.

         This report pertains only to the performance of agreed-upon procedures to evaluate
         USAID / Afghanistan’s school and health clinic buildings completed under SACCARP as
         identified within the procedures to confirm and verify that the buildings are being used
         for their intended purposes and to ascertain the impact of the program on the provision of
         educational and health services to the people of Afghanistan. We were not engaged to,
         and did not perform an examination, the objective of which would be the expression of an
         opinion on the subject matter of this report. Accordingly, we do not express such an
         opinion. Had we performed additional procedures, other matters might have come to our
         attention that would have been reported to you.

         We report our detailed finding in the ensuing pages of this section.




ABCD 	                                                                                                             16

                     Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



         Following are the major findings identified during the physical verification of thirty
         selected schools and twenty health clinics

4.1      Intended Use of Buildings:

         Criteria

         To achieve intended program results, school and health clinic buildings completed under
         SACCARP should be used for their relative intended purposes of providing education or
         health services.

         Reportable conditions

         Field visits revealed two buildings completed under SACCARP were not being used for
         their intended purposes, as noted below;

         a)	 Building of Naswan secondary school, bearing USAID ID S-HRT-043 situated in
             District Karokh Centre, in Herat Province was being used by the Educational
             Department of Ministry of Education of Herat Province as administration office. The
             use of the building as administrative office of Department of Education was not
             approved by USAID.

         b)	 The building of Mandozai Basic Health Clinic, bearing USAID ID C-KST-001
             situated in District Mandozai Mitta Khan, in Khost Province was vacant and was not
             being used for treatment of patients.

         Cause

         Ministry officials explained that the school built under USAID program was not adequate
         to accommodate the area’s students and the health clinic building couldn’t be used for the
         treatment of patients due to security concerns. It is unknown if such issues were
         considered in the completion of these buildings under SACCARP.

         Effect

         These two buildings completed under SACCARP are not assisting in the achievement of
         program objectives. Furthermore, they raise questions about whether and how many
         additional buildings completed under the program are not contributing to intended
         program results.

         Recommendation

         To enable the Mission to evaluate program impact, USAID/Afghanistan should request,
         from the relevant ministries, a list of schools and a list of health clinic buildings
         completed under SACCARP, which are not being used for intended purposes,




ABCD 	                                                                                                             17

                     Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



4.2      Physical Condition of School and Health Clinic Buildings:

         Criteria

         School and health clinic buildings completed under SACCARP should be free from
         physical deficiencies, which significantly undermine their utility. Specifically, the
         physical condition of the completed buildings should assist in the achievement of
         program goals by providing a safe environment with suitable facilities to support learning
         or treatment, as appropriate. USAID/Afghanistan currently applies the International
         Building Code to the building projects it funds, however, we understand from discussions
         with the USAID team that the International Building Code was not adhered to during the
         SACCARP program implementation.

         Reportable conditions

         We noted various problems relating to the physical condition of selected school and
         health clinic buildings completed under SACCARP program. These physical deficiencies
         include structural defects, no electrical supply, no water or deficient water supply,
         plumbing problems, and deficient toilets. Details are provided in the following table.

          Nature of Reportable                    Schools (#)                          Health clinics (#)
          Condition
                                        New       Refurbished        Total      New       Refurbished        Total
          a- Structural defects           5              5             10          3            Nil             3
          b- Poor hardware                5              6             11          1            Nil             1
          c- No electrical               11             10             21          3            Nil             3
              supply
          d- No water or                  8              6             14          4             1              5
              deficient water
              supply
          e- Plumbing problems           13              9             22         11             1             12
          f- Deficient toilets            7              5             12        Nil            Nil           Nil
          g- Lack of class                6              7             13        Nil            Nil           Nil
              rooms

         These deficiencies are explained in the following paragraphs:

         a.	 Structural defects: Structural defects include water seepage and uneven surfacing of
             floors, roof, or walls, which are apparent through physical inspection / observation.
             We have noted 10 school and 3 health clinic buildings with a variety of construction
             problems. However in order to have a conclusive view about the seriousness of these
             problems, the opinion of engineering experts would be required to assess how
             critical and dangerous such problems are and whether it is safe to hold classes or to
             operate clinics in the affected buildings.(See photographs on Page # 32 to 36)


ABCD 	                                                                                                              18

                    Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



       b. Poor hardware: Poor hardware means defective fixtures, including doors, windows,
          fittings and other items which do not form part of a building’s structure. We
          identified 11 schools having poor hardware conditions, while no health clinics were
          found to have these problems. There are differing reasons for the poor hardware
          conditions, which include the use of inappropriate materials by the contractor. (See
          photographs on Page # 37 and 38)

       c. No electrical supply: Electricity is a very important utility in the context of
          Afghanistan due to severe weather conditions. We identified 21 school buildings
          with no supply of electricity. Out of these 21 buildings, 17 were located in the areas
          where electricity is not available and the remaining 4 buildings have no connectivity
          in spite of the availability of electricity. Additionally, 3 newly constructed basic
          health clinics are not supplied with electricity, primarily because none is available in
          the area.

       d. No water or deficient water supply: 14 of 30 schools and 5 of 20 health clinics
          have either a deficient supply of water or absolutely no water availability. There are
          various reasons behind these problems to include: no water source in the vicinity, dry
          water wells, salty water that can’t be used for drinking purposes, and / or inadequate
          numbers of hand pumps given the number of students.

       e. Plumbing problems: We have identified 22 out of 30 school buildings and 12 out of
          20 health clinic buildings with problems relating to plumbing. The identified
          problems include no plumbing and poor or incomplete plumbing. In some cases, the
          absence of plumbing in buildings is primarily linked to deficiencies in the supply of
          water and electricity. These problems may also have stemmed from an inadequate
          needs assessment at time of planning the construction and refurbishment of clinics.

       f.   Deficient toilets and waste disposal: Toilet facilities were lacking in 12 schools, this
            includes no or insufficient toilet facilities, lack of water in toilets, and no doors in
            toilets. No such problems were found in health clinic buildings. (See photographs
            on Page # 39)

       g. Lack of class rooms: There were 13 schools comprising 6 new and 7 refurbished
          school buildings where class rooms were considered inadequate for accommodating
          all students and classes are being conducted in temporary shelters and open air. (See
          photographs on Page # 40 and 41)

       Cause

       The possible primary reason for all of the physical deficiencies identified is that
       International Building Code was not applied to the construction and refurbishment of
       buildings subject to the program.




ABCD                                                                                                              19

                     Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



         Effect

         The problems identified above in the school and health clinic buildings result in an
         environment which is not conducive for imparting quality education and health services
         and might expose the students, patients, and staff working in those buildings to dangerous
         and life threatening conditions.

         Recommendations

         USAID/Afghanistan should evaluate the physical deficiencies identified above and in
         Annexure C and D of this report in light of the International Building Codes and it should
         identify and develop remedial actions it could implement.

         USAID/Afghanistan should devise an action plan to carry out these remedial actions.

4.3      Operational Condition of School and Health Clinic Buildings:

         Criteria

         School and health clinic buildings completed under SACCARP should be free from
         operational problems, which significantly undermine their utility. Specifically, the
         completed buildings should receive ongoing support and attention to provide for the
         provision of education or medical treatments, as appropriate.

         Reportable conditions

         We noted various problems relating to the operational condition of selected school and
         health clinic buildings completed under SACCARP program. These operational
         problems included lack of maintenance, lack of funding, peeling paint, lack of personnel,
         lack of furniture, classrooms and equipment and security issues.

          Nature of Reportable                     Schools (No)                        Health clinics (No)
          Condition
                                         New       Refurbished        Total      New        Refurbished       Total
          a- Lack of maintenance          13             11             24         7            Nil             7
          b- Lack of funding               5              2             7          3            Nil             3
          c- Peeling paint                 8             10             18         7            Nil             7
          d- Lack of personnel             9              7             16        12             5             17
          e- Lack of furniture and        10              8             18         8             2             10
              Equipment
          f- Security issues               4              2             6          3            Nil             3

         These problems are explained in the following paragraphs:

         a. 	 Lack of maintenance: As identified earlier there were many instances where schools
              were having maintenance problems, a shortage of water and toilet facilities.



ABCD 	                                                                                                              20
                   Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



            Collectively maintenance related problems were identified in 24 schools and 7
            clinics.

       b. Lack of funding: Clinics and schools where payments of staff salaries were long
          outstanding or where there were delays in payment of salaries are faced with the lack
          of funding. We noted 7 schools and 3 clinics with funding problems.

       c. Peeling paint: Peeling paint on the buildings presents an unpleasant appearance. We
          noted 18 schools where the walls presented an unclean and unpleasant appearance.
          Similarly 7 health clinic buildings were found with similar problems. According to
          school and health clinic officials, this problem is purely due of lack of maintenance,
          as they do not have sufficient funds to properly maintain the buildings handed over
          by SACCARP. (See photographs on Page # 42 and 43).

       d. Lack of personnel: Schools where there is one teacher for more than fifty students
          or there is no teacher for a particular subject have been classified as having
          inadequate personnel for the purpose of this report. We identified 9 schools where
          there was only one teacher for more than fifty students, and in case of 7 schools, no
          teacher was available to present a particular subject. In case of health clinics we
          identified, through the interviews with the management, that 17 health clinics require
          additional staff comprising of 12 doctors, 16 nurses and 7 midwives.

       e. Lack of furniture (in case of schools) and equipment (in case of clinics): Out of
          the sample of 30 school buildings constructed and refurbished under SACCARP
          program, 18 schools were identified as having problems relating to furniture. The
          problems include different situations starting from no furniture at all, and insufficient
          and inappropriate furniture. Furthermore, in case of health clinics, 10 clinics were
          identified as lacking surgical and lab equipment.

       f.   Security issues: In 6 out of 30 cases, school officials expressed concerns about
            issues related to the insurgency. They told us that the security conditions for them
            were threatening. These schools are located in Afghanistan’s Kunar, Kunduz,
            Laghman and Paktiya provinces. Similarly the officials at 3 basic health clinics
            pointed out the threatening security conditions. These health clinics are situated in
            Faryab, Khost and Kunduz province of Afghanistan.

       Cause

       According to relevant officials, the selected schools and clinics lack the funds necessary
       to provide ongoing operational support to the provision of education and medical
       treatments, as appropriate. This circumstance results in insufficient maintenance/peeling
       paint, shortages of personnel, a scarcity of furniture, classrooms, and equipment and
       security issues, is the prime cause of the problems associated with the operating
       conditions of the buildings completed under SACCARP program.




ABCD                                                                                                             21

                     Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



         Effect

         The identified operational problems negatively impact on the provision of education and
         health services to the peoples of Afghanistan.

         Recommendation

         The operational conditions of the school and health clinic buildings completed under
         SACCARP are the responsibility of the Government of Afghanistan. Accordingly, we
         make no recommendations to USAID/Afghanistan to address these problems.

4.4	     Impact of the SACCARP Program on the Provision of Educational and Health
         Services to the People of Afghanistan.

         The overall objective of the SCARRP program is to provide assistance to the
         Government of Afghanistan. The program seeks to develop the capacity of the
         Afghanistan Government to provide improved access and quality of education and health
         services to the peoples of Afghanistan and simultaneously to contribute to improvement
         of the country’s socioeconomic conditions.

         We found that with neither an identification of baselines nor an assessment of needs, we
         could not measure the impact of SACCARP on the provision of education and health
         services to the people of Afghanistan. Nevertheless, the 30 selected school buildings are
         staffed with 1,385 teachers imparting education to 57,744 students. In case of 20 health
         clinics buildings, 109 clinical staff provides medical treatment to approx. 39,500 patients
         on monthly basis. These figures, however, do not give a meaningful indication of the
         completed buildings’ impact on the provision of education and health services in
         Afghanistan, because comparable quantitative information from before the program
         occurred and of program objectives are not available.

         Following information pertaining to baseline assessments was not available;

         •	 The socioeconomic indicators for targeted program interventions at the time of
            program design and conception of the project objectives
         •	 Methodology for identification of targeted locations for schools and clinics including
            the basis of need assessment, baseline data, and its augmentation in program
            implementation.
         •	 Methodology for estimating and certifying the program implementation costs.
         •	 Identification of any other similar interventions by other donors and NGOs – existing
            or planned at the start of the program and tailoring requirements identification and
            program modification during the program implementation
         •	 The impact hypothesis for the program design on expected outcomes, both qualitative
            and quantitative Key Performance Indicators.

         In addition to above the information on the key program implementation activities was
         not available to us further limiting our ability on impact assessment.



ABCD 	                                                                                                             22

                     Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



         •	 The supervision and monitoring mechanism of USAID on program implementation
            i.e. do the monitoring and supervision report indicate that implementing partners
            served the program and succeeded in upgrading themselves and deriving enhanced
            benefit from their productive activities.
         •	 The quality assurance procedures of USAID for the project implementation including
            criteria for taking on board International Non-government Organizations, criteria for
            hiring of sub-contractors for execution of work and evaluation of design
            specifications.
         •	 The detailed information on the type and extent of each program intervention i.e.
            categorization of constructed & refurbished facilities with reference to the size of
            facility and the precise nature of work.

         This report is limited to the scope set out in our contract (contract No. 492-C-00-09-
         00019-00). The Firm’s work and this report are not planned or prepared for the purposes
         of anyone other than that of addressees’ interests or needs. Therefore, items of possible
         interest to others may not have been specifically addressed for the purposes of this report.
         The use of professional judgment, and the assessment of issues or their relevance (as
         appropriate) for the purpose of the Firm’s work and this report, mean that matters may
         have existed that would have been assessed differently by others for their purposes. The
         Firm does not warrant or represent that the information in this report is appropriate for
         their purposes. This report was not created for, and should not be treated as suitable for,
         any purpose other than that set out in the report itself and/or in the terms of the contract.

         Accordingly, the Firm does not accept or assume responsibility to anyone other than the
         addressees of this report, for its work, for this report or for any judgments, findings,
         conclusions, recommendations or opinions that the Firm has formed or made.

         The tables and pictures appearing in this report and the site visit reports handed over to
         USAID form an integral part of this report.



         KPMG Afghanistan Limited, Kabul




ABCD 	                                                                                                             23

                      Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



                                                                                                     Annexure A
 Selected Sample of Schools
Sample      USAID          Province              District          Village / Site               Name of School
  No        SITE ID                              Name                  Name
  1       S-BLK-027      BALKH               Khulm              Deh Hassan             Deh Hassain Primary School
  2       S-BLK-028      BALKH               D #10 Center       Tahkhnikum             Balkh Experimental High
                                                                                       School
  3       S-BAM-         BAMYAN               Yakolang          Nayak                  Yakulang High School
          012
  4       S-FRB-028      FARYAB               Garziwan          Dara-e-Shakh           Abdul Karim Shahid girls
                                                                                       primary School
  5       S-FRB-038      FARYAB              Belchiragh         Jar Qala               Jar Qala Boys High School
  6       S-FRB-023      FARYAB              Maimana            Takar Khana            Tatar Khana girls primary
                                                                                       School
  7       S-FRB-037      FARYAB              Belchiragh         Ddara Shakh            Abdul Ghafor Boys primary
                                                                                       School
  8       S-HRT-041      HERAT               Eslamqala          Centre of              Laisa Islam Qila
                                                                Eslamqala
  9       S-HRT-038      HERAT               Gharyan            Nang Abad              Nangabad Primary School
  10      S-HRT-043      HERAT               Karokh             Centre                 Naswan Secondary School
  11      S-KBL-005      KABUL               Kabul City         Rahman Mena            Naswan-e- Rahman Meena
                                             #8                                        High School
  12      S-KBL-001      KABUL               Khak Jabar         Khak Jabar             Malang High School
  13      S-KBL-004      KABUL               Kabul City         Khushalmena            Deh Now-e- Dehbori High
                                             #5                                        School
  14      S-KBL-024      KABUL               Kabul city         District# 2            Ansari High School
  15      S-KBL-029      KABUL               Qarabagh           Qarabagh               Qarabagh Secondary School
  16      S-KBL-020      KABUL               Kabul city         Panjsad Family         Laisa Panjsaad Family
  17      S-KDR-031      KANDAHAR            Kandahar           Darwaza Eidgah         Muhammad Tarzai High School
                                             City
  18      S-KST-036      KHOST               Center             Ponzaia                Gharghasht primary School
                                             (Khost)
  19      S-KNR-008      KUNAR               Dangam             Dangam                 Dangam centre high school
  20      S-KDZ-029      KUNDUZ              Kunduz             Bagh Miry              Bagh miry High school
                                             center
  21      S-KDZ-032      KUNDUZ              Kunduz             Alchin                 Alchin High School
                                             center
  22      S-LGN-008      LAGHMAN              Alisheng          Qalai Najiel           Qalai Najeel High school
                                                                                       Aliabad
  23      S-LGN-001      LAGHMAN              Alingar           Badi Abad              Naswan Badi Abad high school
  24      S-LGN-015      LAGHMAN             Mehterlam          Qala-e-Naw             Naswan Qila now high school
  25      S-PTA-015      PAKTYA              Wazi               Ali Ahmad khail        Ali Ahmad khail primary
                                                                                       school


ABCD                                                                                                                24

                   Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




 26    S-PJR-009      PANJSHIR             Anabah            Zaman Kor              Zaman Kor Primary School
 27    S-PRN-023      PARWAN              Jabul Saraj        Gulbahar               Gulbahar No. 1 Secondary
                                                                                    School
 28    S-SGN-021      SAMANGAN            Hazrati            Sariqa Uzbiqa          Sarqia primary school
                                          Sultan
 29    S-TKR-006      TAKHAR              Farkhar            Farkhar Centre         Samemi shahid High School
 30    S-TKR-018      TAKHAR              Khoja Ghar         Laghlakn               Laklakan Secondary School




ABCD                                                                                                             25

                      Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



                                                                                                     Annexure B

Selected Sample of Health Clinics

Sample   USAID           Province             District Name          Village / Site        Name of Health Clinics
No       SITE ID                                                     Name
  1      C-BDK-013       BADAKHSHAN           Yaftal Sufla           Shakar Lab            Shakar Lap Clinic
  2      C-BLN-006       BAGHLAN              Andrab-Deh Salah       Deh Salah             Deh Salah Comprensive Health
                                                                                           Clinic
  3      C-FRB-007       FARYAB               Khuja Musa             Ghartepa              Ghartepa Basic Health Clinic
  4      C-HRT-017       HERAT                Guzora                 Malan                 Malan Health Clinic
  5      C-JZN-001       JAWZJAN              Shibirghan             Qochen                Qowchen Basic Health Clinic
  6      C-KAP-002       KAPISA               Khom zargar            Koestan awal          CHC Health Clinic Khom
                                                                                           Zargar
  7      C-KST-018       KHOST                Gurbez                 Sheikh Amir           Shikh Amir Health Clinic
  8      C-KST-017       KHOST                Jaji Maidan            Jaji Maidan           Jaji Maidan Health Clinic
  9      C-KST-004       KHOST                Tanay                  Surkot                SurKot Basic Health Clinic
  10     C-KST-001       KHOST                Mandozai               Mitta Khan            Mandozai Basic Health Clinic
  11     C-KST-022       KHOST                Tani                   Dragi                 Daragi Comprehensive health
                                                                                           clinic
  12     C-KDZ-002       KUNDUZ               Ali Abad               Arbab Ramazani        Arab Ramazani
  13     C-LGR-005       LOGAR                Mohammad Agha          Sorkh Aab             Burg BHC
  14     C-PTA-001       PAKTYA               Jani Khil Mangal       Proza Jani Khail      Proza Jani Khail
  15     C-PTA-004       PAKTYA               Aryob Jaji             Dre Khule             Dre Khule BHC
  16     C-PTA-010       PAKTYA               Sayed Karam,           Merzaka Mangal        Merzaka BHC
                                              Mirzaka
  17      C-PJR-007      PANJSHIR             Khinj                  Safed Chir            Safid Chir Health Clinic
  18     C-PRN-010       PARWAN               Chahrakar city         Chahrakar city        Saidan Clinic
  19     C-SGN-006       SAMANGAN             Ebak                   1# D                  Aybak Hospital
  20     C-WDK-003       WARDAK               Daimardad              Qulzangi-             Spi Dewar BHC
                                                                     spendewar




ABCD                                                                                                                26

                                   Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



                                                                                                                                                        Annexure C
Physical condition of School buildings




                                                                           Physical problems



                                                                                               Poor Hardware




                                                                                                                                                            Deficient toilets
                                                                                                                               deficient water
                   USAID Code




                                                                                                                                                                                Lack of class
                                                                                                               No electrical
  Sample No




                                                                                                                               No water or



                                                                                                                                                 Plumbing
                                                                                                                                                 problems
                                            Name of School




                                                                                                               supply



                                                                                                                               supply




                                                                                                                                                                                rooms
                                New Construction
          3   S-BAM-012         Yakulang High School                                                             D                                D                              D
              S-FRB-028
                                Abdul Karim Shahid girls primary
          4                     School                                                                           D                                D         D                    D
          5   S-FRB-038         Jar Qala Boys High School                 D                                      D                 D              D
          6   S-FRB-023         Tatar Khana girls primary School                                                 D                 D              D
          9   S-HRT-038         Nangabad Primary School                                        D                 D                                D         D
     12       S-KBL-001         Malang High School                        D                                      D                 D              D         D
     13       S-KBL-004         Deh Now-e- Dehbori High School                                 D
     14       S-KBL-024         Ansari High School
     17       S-KDR-031         Muhammad Tarzai High School                                                                                       D
     19       S-KNR-008         Dangam centre high school kunar                                D                 D                 D              D
     22       S-LGN-008         Qalai Najeel High school Aliabad                                                 D                 D              D         D                    D
     23       S-LGN-001         Naswan Badi Abad high school              D                                      D                 D              D         D                    D
     24       S-LGN-015         Naswan Qila now high school               D                    D                 D                 D              D         D                    D
     25       S-PTA-015         Ali Ahmad khail primary school            D                    D                 D                                D         D                    D
     29       S-TKR-006         Samemi shahid High School
     28       S-SGN-021         Sarqia primary school                                                                              D              D
                                Sub-total                                    5                   5               11                  8            13          7                     6
                                Refurbishments
          1   S-BLK-027         Deh Hassain Primary School                D                                      D                                D
          2   S-BLK-028         Balkh Experimental High School            D                                                                       D                              D
          7   S-FRB-037         Abdul Ghafor Boys primary School                                                 D                 D              D                              D
          8   S-HRT-041         Laisa Islam Qila                                               D                                                            D                    D
     10       S-HRT-043         Naswan Secondary School Karokh            D                    D                 D                 D              D         D
              S-KBL-005
                                Naswan-e- Rahman Meena High
     11                         School                                                                           D
     15       S-KBL-029         Qarabagh Secondary School                                      D                 D                                                               D
     16       S-KBL-020         Laisa Panjsaad Family                     D                    D                                                                                 D
     18       S-KST-036         Gharghasht primary School                                                        D                                D         D                    D
     20       S-KDZ-029         Bagh miry High school                     D                    D                 D                 D              D
     21       S-KDZ-032         Alchin High School                                             D                                                                                 D
     26       S-PJR-009         Zaman Kor Primary School                                                         D                 D              D         D
     27       S-PRN-023         Gulbahar No. 1 Secondary School                                                  D                 D              D         D
     30       S-TKR-018         Laklakan Secondary School                                                        D                 D              D
                                Sub-total                                    5                   6               10                  6             9          5                     7
                                               Total no of cases found    10                   11               21                14              22        12                   13
D= Problem identified
Blank=No problem identified

ABCD                                                                                                                                                                              27
                                  Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




                                                                                                                                                        Annexure D
Physical condition of Health Clinic buildings




                                                                                                               No electrical supply




                                                                                                                                                        Plumbing problems
                                                                           Physical problems



                                                                                               Poor Hardware




                                                                                                                                      deficient water
               USAID Code




                                                                                                                                       No water or

                                                                                                                                          supply
  Sample No




                                    Name of Health Clinic



                                                        New Construction
         1    C-BDK-013
                            Shakar Lap Clinic                              D                                   D                          D             D
         3    C-FRB-007
                            Ghartepa Basic Health Clinic                   D                                                                            D
         6    C-KAP-002
                            Khom Zargar CHC                                D                                                              D             D
         8    C-KST-017
                            Jaji Maidan Health Clinic                                                                                                   D
         9    C-KST-004
                            SurKot Basic Health Clinic                                                                                                  D
    10        C-KST-001
                            Mandozai Basic Health Clinic                                       D               D                          D             D
    11        C-KST-022
                            Daragi Comprehensive health clinic                                                                                          D
    12
              C-KDZ-002
                            Arab Ramazani                                                                                                 D             D
    13        C-LGR-005
                            Burg BHC                                                                                                                      
    14        C-PTA-001
                            Proza Jani Khail                                                                                                            D
    15        C-PTA-004
                            Dre Khule BHC                                                                                                               D
    16        C-PTA-010
                            Merzaka BHC                                                                                                                 D
    19        C-SGN-006
                            Aybak Hospital                                                                                                                
    20
               C-WDK-
                 003        Spi Dewar BHC                                                                      D                                          
                            Sub-total                                       3                  1                3                          4            11 
                                                          Refurbished 
         2    C-BLN-006
                            Deh Salah Comprensive Health Clinic                                                                                          
         4    C-HRT-017
                            Malan Health Clinic                                                                                                          
         5    C-JZN-001
                            Qowchen Basic Health Clinic                                                                                   D              
         7    C-KST-018
                            Sheikh Amir Health Clinic                                                                                                   D
    17        C-PJR-007
                            Safid Chir Health Clinic                                                                                                     
    18        C-PRN-010
                            Charicar City Hospital                                                                                          
                            Sub-total                                       ‐                   ‐               ‐                         1             1 
                                             Total no of cases found        3                   1               3                         5             12
D= Problem identified
Blank=No problem identified




ABCD                                                                                                                                                                        28

                                 Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




                                                                                                                              Annexure E
Operational condition of School buildings




                                                                          maintenance
               USAID Code




                                                                                                                  personnel
                                                                                                  Peeling paint




                                                                                                                              furniture
                                                                                        Funding




                                                                                                                                          Security
  Sample No




                                                                                        Lack of




                                                                                                                   Lack of



                                                                                                                               Lack of
                                                                            Lack of




                                                                                                                                           issues
                                        Name of School



                                                               New Construction
         1    S-BAM-012
                            Yakulang High School                                         D                                     D
         2    S-FRB-028
                            Abdul Karim Shahid girls primary School         D                                                  D
         3    S-FRB-038
                            Jar Qala Boys High School                       D                     D                D
         4    S-FRB-023
                            Tatar Khana girls primary School                D                     D                            D
         5    S-HRT-038
                            Nangabad Primary School                         D            D                                     D
         6    S-KBL-001
                            Malang High School                              D            D                         D
         7    S-KBL-004
                            Deh Now-e- Dehbori High School                  D                     D
         8    S-KBL-024
                            Ansari High School                              D                     D                D
         9    S-KDR-031
                            Muhammad Tarzai High School                     D            D        D                D           D
    10        S-KNR-008
                            Dangam centre high school kunar                 D                                      D                       D
    11        S-LGN-008
                            Qalai Najeel High school Aliabad                D                                      D           D           D
    12        S-LGN-001
                            Naswan Badi Abad high school                    D                     D                D           D
    13        S-LGN-015
                            Naswan Qila now high school                     D            D        D                D           D           D
    14        S-PTA-015
                            Ali Ahmad khail primary school                  D                     D                                        D
    15        S-SGN-021
                            Sarqia primary school                                                                              D
    16        S-TKR-006
                            Samemi shahid High School                                                              D           D
                                               Sub-total                    13            5         8                9          10          4
                                                                  Refurbished
         1    S-BLK-027
                            Deh Hassain Primary School                      D                     D
         2    S-BLK-028
                            Balkh Experimental High School                               D
         3    S-FRB-037
                            Abdul Ghafor Boys primary School                D                     D                D           D
         4    S-HRT-041
                            Laisa Islam Qila                                D                     D                D           D
         5    S-HRT-043
                            Naswan Secondary School Karokh                  D                     D
         6    S-KBL-005
                            Naswan-e- Rahman Meena High School
         7    S-KBL-029
                            Qarabagh Secondary School                       D                     D                            D
         8    S-KBL-020
                            Laisa Panjsaad Family                           D                                                  D
         9    S-KST-036
                            Gharghasht primary School                       D            D        D                D           D
    10        S-KDZ-029
                            Bagh miry High school                           D                     D                D           D           D
    11        S-KDZ-032
                            Alchin High School                              D                     D                                        D
    12        S-PJR-009
                            Zaman Kor Primary School                        D                     D                D           D
    13        S-PRN-023
                            Gulbahar No. 1 Secondary School                                                        D           D
    14        S-TKR-018
                            Laklakan Secondary School                       D                     D                D
                                               Sub-total                    11            2       10                 7           8          2
                                                Total no of cases found     24            7       18               16          18           6
D= Problem identified
Blank=No problem identified

ABCD                                                                                                                                         29
                                     Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




                                                                                                                                       Annexure F
Operational condition of Health Clinic buildings




                                                                                                                peeling paint
                                                                                   maintenance




                                                                                                                                            equipment
               USAID Code




                                                                                                                                personnel




                                                                                                                                                              Security
                                                                                                 funding
                                                                                     Lack of



                                                                                                 Lack of




                                                                                                                                 Lack of



                                                                                                                                             Lack of
  Sample No




                                                                                                                                                               issues
                            Name of Clinic



                                                                 New Construction 
         1
              C-BDK-
                013         Shakar Lap Clinic                                       D                           D                D           D                  
         2
              C-FRB-
                007         Ghartepa Basic Health Clinic                            D                           D                D                             D
         3
              C-KAP-
                002         CHC Health Clinic Khom Zargar                                                                        D                              
         4
              C-KST-
                017         Jaji Maidan Health Clinic                                            D                               D           D                  
         5
              C-KST-
                004         SurKot Basic Health Clinic                                                                           D           D                  
         6
              C-KST-
                001         Mandozai Basic Health Clinic                            D                           D                            D                 D
         7
              C-KST-
                022         Daragi Comprehensive health clinic                                                                   D           D                  
         8
              C-KDZ-
                002         Arab Ramazani                                           D                           D                D           D                 D
         9
              C-LGR-
                005         Burg BHC                                                                                             D           D                    
    10
              C-PTA-
                001         Proza Jani Khail                                        D                           D                D                                
    11
              C-PTA-
                004         Dre Khule BHC                                                        D                               D                                
    12
              C-PTA-
                010         Merzaka BHC                                                          D                                                                
    13
              C-SGN-
                006         Aybak Hospital                                          D                           D                D                                
    14
              C-WDK-
                003         Spi Dewar BHC                                           D                           D                D           D                    
                            Sub-total                                                  7             3             7              12           8                 3
                                                                    Refurbished 
         1
              C-BLN-
                006         Deh Salah Comprensive Health Clinic                                                                  D           D                    
         2
              C-HRT-
                017         Malan Health Clinic                                                                                  D                                
         3
              C-JZN-
               001          Qowchen Basic Health Clinic                                                                          D                                
         4
              C-KST-
                018         Sheikh Amir Health Clinic                                                                            D           D                    
         5
              C-PJR-
               007          Safid Chir Health Clinic                                                                                                              
         6
              C-PRN-
                010         Charicar City Hospital                                                                               D                                
                            Sub-total                                          -                 -          -                      5           2          -
                                                     Total no of cases found           7             3            7               17          10                3


D= Problem identified
                                                                                                           Blank=No problem identified




ABCD                                                                                                                                                    30

                    Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



                                                                                                   Annexure G
Photographs showing the physical & operational problems
Picture reference   Name of School/Health Clinic         Contents of the picture                                     Page #
and (USAID
Building code)
S 1 (S-BLK-027)     Deh Hassain Primary School,          Physical problem - Water leak and structural defect in          32
                    Balkh                                roof
S 2 (S-FRB-038)     Jar Qala Boys High School,           Physical problems - Crack in foundation and floor               33
                    Faryab
S 3 (S-KBL-001)     Malang High School, Kabul            Physical problems - Cracks in walls                             34
S 4 (S-KDR-031)     Muhammad Tarzai High School,         Physical problem - Poor condition of roof due to                35
                    Kandahar                             water leakage
S 5 (S-PTA-015)     Ali Ahmad khail primary school,      Physical problem - Poor condition of foundation                 36
                    Paktiya
S 6 (S-BAM-012)     Yakulang High School, Bamyan         Poor hardware - Outside door which need repairs                 37
S 7 (S-HRT -043)    Naswan Secondary School              Poor hardware - Poor condition of room                          38
                    Karokh, heart
S 8 (S-HRT -041)    Laisa Islam Qila, Herart             Deficient toilets - Broken toilets                              39
S 9 (S-BLK-028)     Balkh Experimental High School,      Lack of class rooms - Classes under temporary                   40
                    Balkh                                shelters
S 10 (S-FRB-028)    Abdul Karim Shahid girls primary     Lack of class rooms - Classes under temporary                   41
                    School, Faryab                       shelters
C 1 (C-PJR-007)     Safid Chir Health Clinic             Operational problems - Peeling paint                            42
C 2 (C-WDK-003)     Spi Dewar Basic Health Clinic        Operational problems - Peeling paint                            43
 
 




ABCD                                                                                                              31

                      Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



 

    Picture reference and       S 1 (S-BLK-027)
    (USAID Building code)

    Name of School:             Deh Hassain Primary School

    Province                    Balkh

    District                    Khulm

    Village                     Deh Hassan

    Contents showing:           Physical problem - Water leak and structural defect in roof




ABCD                                                                                                                32

                  Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




Picture reference and       S 2 (S-FRB-038)
(USAID Building code)

Name of School:             Jar Qala Boys High School

Province                    Farayb

District                    Belchiragh

Village                     Jar Qala

Contents showing:           Physical problems - Crack in foundation and floor




ABCD                                                                                                            33

                  Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




Picture reference and       S 3 (S-KBL-001)
(USAID Building code)

Name of School:             Malang High School

Province                    Kabul

District                    Khak Jabar

Village                     Khak Jabar

Contents showing:           Physical problems - Cracks in walls




ABCD                                                                                                            34

                  Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




Picture reference and       S 4 (S-KDR-031)
(USAID Building code)

Name of School:             Muhammad Tarzai High School

Province                    Kandahar

District                    Kandahar City

Village                     Darwaza Eidgah

Contents showing:           Physical problem - Poor condition of roof due to water leakage




ABCD                                                                                                            35

                    Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




Picture reference and        S 5 (S-PTA-015)
(USAID Building code)

Name of School:              Ali Ahmad khail primary school

Province                     Paktiya

District                     Wazi

Village                      Ali Ahmad khail

Contents showing:            Physical problem - Poor condition of foundation




ABCD                                                                                                              36

                      Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 



 

    Picture reference and       S 6 (S-BAM-012)
    (USAID Building code)

    Name of School:             Yakulang High School

    Province                    Bamyan

    District                    Yakolang

    Village                     Nayak

    Contents showing:           Poor hardware - Outside door which need repairs




ABCD                                                                                                                37

                  Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




Picture reference and       S 7 (S-HRT -043)
(USAID Building code)

Name of School:             Naswan Secondary School Karokh

Province                    Herat

District                    Karokh

Village                     Centre of Karokh

Contents showing:           Poor hardware - Poor condition of room




ABCD                                                                                                            38

                  Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




Picture reference and       S 8 (S-HRT -041)
(USAID Building code)

Name of School:             Laisa Islam Qila

Province                    Herat

District                    Eslamqala

Village                     Centre of Eslamqala

Contents showing:           Deficient toilets - Broken toilets




ABCD                                                                                                            39

                    Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




Picture reference and        S 9 (S-BLK-028)
(USAID Building code)

Name of School:              Balkh Experimental High School

Province                     Balkh

District                     D-10 Center

Village                      Tahkhnikum

Contents showing:            Lack of class rooms - Classes under temporary shelters




ABCD                                                                                                              40

                  Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




Picture reference and       S 10 (S-FRB-028)
(USAID Building code)

Name of School:             Abdul Karim Shahid girls primary School

Province                    Faryab

District                    Garziwan

Village                     Dara-e-Shakh

Contents showing:           Lack of class rooms - Classes under temporary shelters




ABCD                                                                                                            41

                  Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




Picture reference and        C 1 (C-PJR-007)
(USAID Building code)

Name of Clinic:              Safid Chir Health Clinic

Province                     Panjshir

District                     Khinj

Village                      Safid chir

Contents showing:            Operational problems - Peeling paint




ABCD                                                                                                            42

                    Report on agreed upon procedures for the Post‐occupancy Evaluation of USAID/Afghanistan’s SACCARP 




Picture reference and         C 2 (C-WDK-003)
(USAID Building code)

Name of Clinic:               Spi Dewar BHC

Province                      Wardak

District                      Daimardad

Village                       Qulzangi- spendewar

Contents showing:             Operational problems - Peeling paint




ABCD                                                                                                              43

                                                                                      APPENDIX I 



MANAGEMENT COMMENTS 



MEMORANDUM

TO:                               Bruce N. Boyer, Regional Inspector General/Manila

From:                             William Frej, Mission Director, USAID/Afghanistan /s/

DATE:                             June 2, 2010

SUBJECT:                          Review of School and Health Clinic Buildings Completed Under
                                  the Schools and Clinics Construction and Refurbishment Program
                                  (Audit Report No. 5-306-10-XXX-O)

REFERENCE:                        WMurphy/WFrej memo dated May 2, 2010

Thank you for providing the Mission the opportunity to review the subject draft review
report. We would like to express our gratitude for the professionalism, flexibility,
resourcefulness, and hard work exhibited by the review team. We are providing
confirmation of the actions that have been taken or are planned to be taken to address the
recommendations in the review report.

MISSION RESPONSES TO REVIEW RECOMMENDATIONS

Recommendation No. 1: We recommend that USAID/Afghanistan request from the
Ministry of Education and the Ministry of Health a list of schools and clinic buildings
completed under the Schools and Clinics Construction and Refurbishment Program
that are not being used for intended purposes and make a determination in
coordination with these ministries whether adjustments in the use of these facilities can
or should be made.

The Mission does not concur with the recommendation.

RIG/Manila performed a review of 30 school and 20 health clinic buildings to determine
if these structures were being used for the intended purposes. The results of the review
found:


U.S. Agency for International
Development
8th Floor, PNB Financial Center
Pres. Diosdado Macapagal Blvd.
1308 Pasay City, Philippines
www.usaid.gov/oig
        “..that the selected school and health clinic buildings completed under
       SACCARP are generally being used for their intended purposes with the
       exception of two buildings.”

Ninety-six percent (48 of 50) of the buildings inspected under this RIG/Manila review
were found to be used for the original intended purpose. These results are consistent with
the results of post occupancy evaluations conducted by IRD at the Missions request in
2007. These evaluations determined that most of the buildings sampled were being used
for their original intent.

While the Mission understands the need and importance of conducting end use
monitoring, the Mission believes that this recommendation is far too broad given that
96% of the buildings were deemed to be currently used for the intended purposes. The
recommendation seems to imply that continuous end use monitoring is in order despite
the fact that end use monitoring was conducted and completed one year after the end of
the project as well as through other studies of this project. Furthermore, there are often
logical reasons why certain buildings are not currently in use according to the original
intent. For example, deteriorating security may have forced the closure of a school, or a
new hospital may have been constructed at a later date near the site of a Schools and
Clinics Construction and Refurbishment Program (SACCARP) clinic, thereby obviating
the need for a clinic in that area.

Moreover, the buildings under SACCARP were turned over to the Ministries of
Education and Health and are now the property of the Government of Islamic Republic of
Afghanistan (GIRoA). The Mission cannot dictate the continued use of the buildings,
although in good faith GIRoA is committed to using the buildings for the initial intended
purpose.

Based on the results of the RIG/Manila review, the Mission does not deem further action
to be necessary. The Mission requests RIG/Manila’s concurrence that a management
decision has been made and that the audit recommendation be closed.


Recommendation No 2: We recommend that USAID/Afghanistan evaluate the physical
and construction deficiencies identified in Annexures C and D of the attached KPMG
report and develop an action plan to correct those deficiencies.

The Mission partially agrees with this recommendation.

Actions To Be Taken: The Mission agrees that deficiencies that are the result of defects
in construction, and in particular those defects which could impact life or safety need to
be corrected. Examples would include: significant structural defects; faulty electrical
systems; or, fire hazards attributed to construction. However, the Mission does not agree
to include those buildings that were refurbished under the program as many of these were
short term, immediate solutions for schools or clinics (i.e. plastering and painting). In




                                                                                             2

addition, defects related to a lack of maintenance by the GIRoA, would remain the
responsibility of the owner to address.

The Mission is currently inspecting all buildings funded and constructed under
SACCARP by USAID between 2002-2009 for seismic structural safety. These
inspections are targeted to be completed by December 31, 2010. As the inspections of
each of the buildings are completed, an action plan for each building will be developed
for any remedial reconstruction necessary for those buildings which do not meet the
minimum building performance level for earthquake safety. The target completion date
for the development of the last action plan is March 31, 2011. The buildings identified in
Annexes C and D which were constructed by USAID, (not refurbished buildings) are
included in the scope of these inspections.

Based on the above actions, the Mission requests RIG/Manila’s concurrence that a
management decision has been reached and that this audit recommendation will be
considered closed when the last action plan is developed and approved.




                                                                                         3
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue NW 

         Washington, DC 20523 

           Tel.: 202–712–1150 

           Fax: 202–216–3047
           www.usaid.gov/oig
